**» .

No. 20-5693
In The
Supreme Court of the United States
IN RE:
Terron Gerhard Dizzley
Certificate of Service
I, Terron Dizzley, certify that on this

day of December, 2020, filed a motion to The

Honorable Supreme Court of The United States To Hear Petition For Rehearing by placing in
U.S. Mail, postage pre-paid sent the addresses below:
United States Supreme Court
1 First Street N.E.
Washington, DC 20543
Attorney General Alan Wilson

P.O. Box 11549
A

Columbia, SC 29211

Terron Dizzley, #359480
4460 Broad River Road
Columbia, SC 29210

